                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A13010012                                                                        Page 1 of 1



         We received an allegation of plagiarism in an NSF proposal. 1 The concern expressed was that the
         proposal contained text from a Ph.D. student's dissertation completed under the direction of the PI
         listed on the proposal. Analysis ofthe proposal indicated that there was only a small overlap of text
         between the proposal and the dissertation. Also, the student was listed in the budget justification
         section as the post doctoral candidate that would be funded by the proposal.

         Based on the limited overlap in text and that the student was listed as a participant on the proposal,
         we determined that the matter did not rise to the level of research misconduct. Accordingly, this case
         is closed with no further action taken.




         1-
NSF OIG Form 2 (11/02)
